No. 19-563
Sr ET

In the Supreme Court of the Anited States

STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,

ET AL.,

Petitioners

PATRICK J. COLLINS, ET AL.,

Respondents.

On Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE

I, Robert C. Schubert, a member of the Bar of this Court and counsel for
amici curiae Bryndon Fisher, Bruce Reid, and Erick Shipmon, certify on this 23rd
day of September 2020, that I caused three copies of the Brief of Amici Curiae
Bryndon Fisher, Bruce Reid, and Erick Shipmon to be served by overnight mail and
electronic means on the following:

Jeffrey B. Wall

Acting Solicitor General

Department of Justice

Washington, DC 20530-0001

SupremeCtBriefs@usdoj.gov

Counsel for Petitioners Steven T. Mnuchin, Secretary of the Treasury, et al.
Charles J. Cooper

Cooper & Kirk, PLLC

1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
ccooper@cooperkirk.com

Counsel for Respondents Patrick J. Collins, et al.

Aaron Lloyd Nielson

J. Reuben Clark Law School

Brigham Young University

516 JRCB

Provo, UT 84602

nielsona@law.byu.edu

Counsel for Court-Appointed Amicus Curiae

I further certify that all parties required to be served have been served.

Teche ( Subat=—

Robert C. Schubert
